Nos. 19-267, 19-348

Bun the Supreme Court of the Gnited States

Our LaDy OF GUADALUPE SCHOOL, PETITIONER
V.

AGNES MoRRISSEY-BERRU, RESPONDENT

ST. JAMES SCHOOL, PETITIONER
Vv.

DARRYL BIEL, AS PERSONAL REPRESENTATIVE OF THE ESTATE OF KRISTEN, RESPONDENT

ON WRITS OF CERTIORARI TO THE UNITED STATES COURT OF APPEALS FOR THE NINTH
CIRCUIT

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the brief for
Franciscan University of Steubenville as amicus curiae in support of Petitioners
contains 3,302 words, excluding the parts that are exempted by Supreme Court

Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

gus

Linda Coberly

Executed on February 10, 2020.

   

 
